   November 22, 2004




Acquisition

Contract Award and Administration
for Modular Causeway Systems
(D-2005-021)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ATCOM                 Army Aviation and Troop Command
DCMA                  Defense Contract Management Agency
FAR                   Federal Acquisition Regulation
MCS                   Modular Causeway System
ORD                   Operational Requirements Document
PQDR                  Product Quality Deficiency Report
TACOM                 Tank-automotive and Armaments Command
                           INSPECTOR GENERAL
                         DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                       November 22,2004
MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY
               AUDITOR GENERAL,
                 DEPARTMENT OF THE ARMY
SUBJECT: Report on Contract Award and Administration for Modular Causeway
         Systems (Report No. D-2005-021)

        We are providing this draft report for information and use. This report is one in a
series of audits performed in response to a congressional request and allegations made to
the Defense Hotline. No written response was required, and none was received.
Therefore, we are publishing this report in final form.
        We appreciate the courtesies extended to the staff. For additional information on
this report, please contract Ms. Kimberley A. Caprio at (703) 604-9202 (DSN 664-9202)
or Ms. Rhonda L. Ragsdale at (703) 604-9347 @SN 664-9347). See Appendix C for the
report distribution. Audit team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                           David K. Steensma
                                       Assistant Inspector General
                                        for Contract Management
           Office of the Inspector General of the Department of Defense
Report No. D-2005-021                                                    November 22, 2004
   (Project No. D2004CG-0026)

                     Contract Award and Administration for
                          Modular Causeway Systems

                                  Executive Summary

Who Should Read This Report and Why? The modular causeway system program
manager and personnel at the Defense Contract Management Agency as well as users of
the modular causeway system and the personnel in change of management of funds for
the modular causeway system should read this report.

Background. This report addresses allegations related to the Army acquisition of the
modular causeway system. A second report will discuss allegations related to the Navy
lighterage system. Senator Pete V. Domenici forwarded an inquiry that contained
allegations relating to procurement of the modular causeway system. The Army used the
modular causeway system to assist with its mission to offload cargo and warfighting
materials from vessels upon their arrival in a theater of operations. The modular
causeway system was used when the shore area facility did not have enough water depth
for vessels to load and unload cargo directly onto land. The modular causeway system
consisted of four subsystems: roll-on/roll-off discharge facility, causeway ferry, floating
causeway, and warping tug.

From 1992 through 2003, the Army awarded a total of five contracts and used two
interagency agreements for the modular causeway system; however, only two contracts,
the December 1992 and May 2001, were for the procurement of the modular causeway
systems. The remaining three contracts and two interagency agreements were for either
the payment of royalties for the use of the patent for the side-to-side connector or for
refurbishment of the modular causeway system components. As of March 2004, the
Army had spent $48.9 million on the current May 2001 modular causeway system
contract.

The complainant identified numerous allegations that we summarized and categorized
into four primary allegations: contract award and administration of the May 2001
modular causeway system, connector reliability and safety of the connectors used to
fasten components of the modular causeway system together, materiel release of the four
subsystem of the modular causeway systems, and Federal funds management.

Results. Although we partially substantiated the allegations regarding the modular
causeway system, the Army had already initiated corrective actions. Specifically we:

       •    did not substantiate the allegations relating to contract award and
            administration,

       •    partially substantiated the allegations regarding the reliability and safety of
            the connectors used to fasten components of the modular causeway system
            together,
       •   partially substantiated the allegations regarding the materiel release of the four
           subsystems of the modular causeway system, and

       •   did not substantiate the allegations that Army Tank-automotive and
           Armament Command did not properly manage Federal funds.

The reasons we were only able to partially substantiate the allegations were two-fold.
Specifically, the allegations were directed at the FY 2001 contract, but could only be
substantiated as they related to the FY 1993 contract. Army Tank-automotive and
Armament Command took actions between the FY 1993 contract and the FY 2001
contract award to resolve issues identified in the allegations.

The Tank-automotive and Armaments Command and Lake Shore, Inc., (the contractor)
took actions to correct the reliability and safety concerns and set in place procedures,
tests, and inspections with the contractor to ensure the production concerns did not occur
again. The Tank-automotive and Armament Command expended an additional
$5.9 million for corrective actions to ensure that the modular causeway system met the
operational requirements. See the Finding section for a discussion of the four categories
of allegations and audit results.

Management Comments. We provided a draft of this report on October 18, 2004. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                             ii
Table of Contents

Executive Summary                                    i

Background                                          1

Objectives                                          3

Finding
     Modular Causeway System Allegations             5

Appendixes
     A. Scope and Methodology                       19
         Prior Coverage                             20
     B. Components of the Modular Causeway System   21
     C. Report Distribution                         24
Background
    This report is the first of two reports resulting from a congressional request from
    Senator Pete V. Domenici and allegations made to the Defense Hotline. Both
    inquiries contained a series of allegations relating to acquisition of the Army
    modular causeway system (MCS). The allegation stated that the contract awarded
    in May 2001 (the FY 2001 contract) for the MCS was awarded based on price
    instead of best value to Lake Shore, Inc. (Lake Shore). In addition, the allegation
    stated that the connectors used to fasten components of the subsystems of the
    MCS were unreliable, unsafe, and contributed to unnecessary risk for the soldier
    causing the Army to take more than 10 years (after the award of the contract) to
    obtain materiel release of the four MCS subsystems. Finally, the allegation stated
    that Army Tank-automotive and Armament Command (TACOM) had not
    properly managed Federal funds.

    Modular Causeway Systems. To accomplish its mission, the Army must offload
    cargo and warfighting materiel from strategic sealift and commercial vessels upon
    its arrival in a theater of operations. Offloading is best accomplished in a shore
    area facility with enough water depth for vessels to load and unload cargo directly
    onto land. However, there were times when the Army had to perform its
    offloading mission in waters that were not deep enough to accommodate its cargo
    vessels. When such shore areas were unavailable the Army used the floating
    MCS to carry out the offloading mission.

    The MCS consisted of four subsystems: roll-on/roll-off discharge facility,
    causeway ferry, floating causeway, and warping tug. Each subsystem was made
    up of a group of interoperable and interchangeable floating sections, and each
    section consists of one or more individual modules. To create the various sizes
    and configurations needed to build a subsystem, such as the floating causeway,
    the individual modules were connected by either side-to-side or end-to-end
    connectors. The following figure depicts a floating causeway subsystem. See
    Appendix B for more information on the four MCS subsystems and the individual
    components of the side-to-side connectors.




                                             Insert

                              Floating Causeway subsystem



                                         1
           MCS Users and Management Responsibilities. The 331st Transportation
           Company, located at Fort Eustis, Virginia, was the primary user of the MCS.
           Until 1997, the Army Aviation and Troop Command (ATCOM) was responsible
           for MCS contracting and program management. In 1997, ATCOM closed as part
           of the Base Realignment and Closure process, and the TACOM took over as the
           program manager and the procuring and administrative contracting officer for
           MCS. For the MCS, the Defense Contract Management Agency (DCMA) had the
           responsibility for the materiel inspection and acceptance for the Army from Lake
           Shore.

           MCS Contracts and Related Actions. From 1992 through 2003, the Army
           awarded a total of five contracts, used two interagency agreements, and revised
           the operational requirements document (ORD) related to the MCS.

                   •   In FY 1993 (December 1992), ATCOM competitively awarded a firm-
                       fixed-price contract (DAAK01-93-D-0007) (the FY 1993 contract) for
                       $30.2 million to Lake Shore. The contract was for the procurement of
                       10 powered sections, 14 combination beach and sea end sections, and
                       56 individual sections1 as test and developmental units to explore
                       alternative solutions for meeting the offloading mission of the Army
                       and to identify any potential enhancement for future procurements.
                       The FY 1993 contract was completed in October 1997. Over the life
                       of the FY 1993 contract ATCOM and TACOM made approximately
                       28 modifications to the contract including changes to funding
                       requirements and delivery schedules; adding new contract line items;
                       and clarifying purchase description, modifications, and engineering
                       changes.

                   •   In May 1996, ATCOM awarded a sole-source firm-fixed-price
                       contract (DAAK01-96-01-0049) to Robishaw Engineering, Inc.,
                       (Robishaw) for $1 million to pay royalties for the use of the patent for
                       the side-to-side connectors used on the MCS. The royalties were only
                       paid if the Robishaw patent for the side-to-side connector was used in
                       the design of the MCS.

                   •   In August 1999, the Army revised the MCS ORD to meet additional
                       operational needs and enhancements. The revised ORD specified new
                       MCS performance parameters identified during testing of the
                       components purchased under the FY 1993 contract.

                   •   From 1999 through 2003, TACOM used two interagency agreements
                       with the Department of Transportation and issued two contracts to
                       refurbish and upgrade the assets that the Army had procured under the
                       FY 1993 contract to meet the new requirements outlined in the
                       August 1999 ORD. The interagency agreements and contracts are as
                       follows:



1
    The causeway ferry is composed of individual powered and nonpowered sections and each section is
    made up of nine smaller modules.



                                                     2
                  − In 1999, TACOM used interagency agreement
                    DTRS57-99-X-00022 with the Department of Transportation
                    for $2.3 million this includes the refurbishment of 27 modules
                    from the FY 1993 contract, which were located at Fort Eustis,
                    Virginia. The Department of Transportation was required to
                    sandblast and repaint the interior and exterior of the modules,
                    perform visual inspections of the structural condition, and
                    provide a written inspection report of the state of each module.
                    Of the $2.3 million, only $540,000 was used to repair the 27
                    modules. The remaining funds were used to engineer and
                    fabricate components of the roll-on/roll-off discharge facility,
                    warping tug, causeway ferry, and floating causeway systems.

                  − In 2002, TACOM used a second interagency agreement,
                    DTRS57-02-X-70013, with the Department of Transportation
                    for $2.2 million to refurbish 118 modules from the FY 1993
                    contract, which were located at Fort Eustis, Virginia. The
                    Department of Transportation was again required to sandblast
                    and paint the interior and exterior of the modules, perform
                    visual inspections of the structural condition, and provide a
                    written inspection report of the state of each module.

                  − In 2002, TACOM awarded contract DABT57-99-D-0035 for
                    $795,830 to Metal Trades, Inc., to clean, paint, and repair
                    168 modules from the FY 1993 contract, which were located at
                    Fort Eustis, Virginia. The purpose of this contract was to
                    refurbish modules to ensure continued functionality.

                  − In 2003, TACOM awarded contract DABT57-99-D-0034 for
                    $570,397 to Davis Boat Works, Inc., to clean, paint, and repair
                    67 modules from the FY 1993 contract, which were located at
                    Fort Eustis, Virginia; Baltimore, Maryland; and Rhinelander,
                    Wisconsin. The purpose of this contract was to refurbish
                    modules to ensure continued functionality.

           •   In May 2001, TACOM competitively awarded a firm-fixed-price
               contract (DAAE07-01-D-T026) (the FY 2001 contract) with one base
               year and two 1-year options period to Lake Shore for approximately
               $64.3 million for the construction of the MCS to include all four
               subsystems. The new systems were also to be compatible and
               interchangeable with already existing systems in the Army inventory.
               As of March 2004, TACOM had spent $48.9 million and had
               exercised both options.


Objectives
    The overall audit objective was to determine whether contract award and
    administration policies and procedures were properly followed for the acquisition
    of the MCS. Specifically, we evaluated contract award and administration of the


                                        3
May 2001 modular causeway systems, connector reliability and safety of the
connectors used to fasten components of the modular causeway system together,
materiel release of the four subsystem of the modular causeway system, and
Federal funds management. See the Finding section for a discussion of the four
categories of allegations and audit results. See Appendix A for a discussion of
the scope and methodology and for prior coverage related to the objectives.




                                    4
            Modular Causeway System Allegations
            We partially substantiated the allegations regarding the modular causeway
            system. Specifically we:

                    •   did not substantiate the allegations relating to contract award
                        and administration,

                    •   partially substantiated the allegations regarding the reliability
                        and safety of the connectors used to fasten components of the
                        modular causeway system together,

                    •   partially substantiated the allegations regarding the materiel
                        release of the four subsystems of the modular causeway
                        system, and

                    •   did not substantiate the allegations that TACOM did not
                        properly manage Federal funds.

            The reasons we were only able to partially substantiate the allegations
            were two-fold. Specifically, the allegations were directed at the FY 2001
            contract, but could only be substantiated as they related to the FY 1993
            contract. Second, TACOM took actions between the FY 1993 contract
            and the FY 2001 contract award to resolve issues identified in the
            allegations.


Allegations Related to the MCS
     The complainant identified numerous allegations that stated that the connectors
     used to fasten components of the subsystems of the MCS were unreliable, unsafe,
     and contributed to unnecessary risk for the soldier causing the Army to take more
     than 10 years (after the award of the contract) to obtain materiel release of the
     four MCS subsystems. We categorized the allegations into four primary
     allegations: contract award and administration, connector reliability and safety,
     materiel release, and management of Federal funds.

     Contract Award and Administration
     Source Selection Regulations. The Federal Acquisition Regulation (FAR)
     prescribes guidelines for source selection. FAR 2.101, “Definitions,” defines best
     value as the expected outcome of an acquisition that, in the Government’s
     estimation, provides the greatest overall benefit in response to the requirement.
     FAR Subpart 15.3, “Source Selection,” states that the award decision is based on
     evaluation factors and significant subfactors that are tailored to the acquisition.




                                           5
The evaluation factors and significant subfactors that apply to an acquisition and
their relative importance are within the broad discretion of agency acquisition
officials, subject to the following requirements:

       •   Price or cost to the Government shall be evaluated in every source
           selection.

       •   The quality of the product or service shall be addressed in every
           source selection through consideration of one or more noncost
           evaluation factors, such as past performance, compliance with
           solicitation requirements, technical excellence, management
           capability, personnel qualification, and prior experience.

       •   Except when not appropriate, past performance shall be evaluated in
           all source selections for negotiated competitive acquisitions expected
           to exceed $1,000,000.

FAR Subpart 15.304(d) states that while the rating method need not be disclosed,
all factors and significant subfactors that will affect contract award and their
relative importance should be stated clearly in the solicitation. The general
approach for evaluating past performance information should be described. In
addition, the solicitation should also state, at a minimum, whether all evaluation
factors other than cost or price, when combined, are significantly more important,
approximately equal to, or significantly less important than cost or price.

Contract Award Allegation. The allegation stated that the source selection
decision was flawed, and the Army improperly awarded the FY 2001 contract
(DAAE07-01-D-T026) based on price rather than best value. Specifically, the
allegation stated that TACOM failed to do the following:

       •   Consider the technical component of the MCS proposals to determine
           which contractor offered the best value.

       •   Consider known safety and reliability problems with the side-to-side
           connector when awarding the “sole-source” contract
           DAAK01-96-C-0049.

       •   Require that the Lake Shore proposal be in compliance with the
           specifications outlined in the request for proposals.

       •   Require that the MCS be properly tested in water.

       •   Require that Lake Shore provide a warranty for the connector.

Audit Results. We did not substantiate that the Army awarded the FY 2001
contract based on price rather than best value, and we could not substantiate the
five specific allegations, as stated above.

        Source Selection Evaluation Plan. We determined that TACOM
complied with the FAR Part 15.3 in defining source selection criteria in the
solicitation. Specifically, the solicitation stated that the proposals would be rated


                                      6
on four source selection evaluation factors. In order of importance, the factors
were: technical merit, price, ability to logistically support the system, and past
performance and use of small business. Technical merit was composed of two
factors, design and integration and production capability. Evaluation factors other
than price when combined were significantly more important than price.

Based upon a review of the Source Selection Authority decision documents,
TACOM consistently applied the source selection criteria as defined in awarding
the contract to Lake Shore.

        Source Selection Decision. In response to the request for proposal for the
FY 2001 contract, TACOM received bids from five contractors. In accordance
with the source selection evaluation plan, TACOM eliminated three contractors,
two for failing to provide proposal information as specified in the request for
proposal and one for being outside of the competitive range. The source selection
board evaluated the remaining two bidders based upon the four established source
selection evaluation criteria. Using the four evaluation factors, the source
selection board ranked the remaining proposals using a five-scale rating ranging
from “excellent,” very low risk, to “poor,” very high risk.

The source selection board concluded that both contractors (Contactors A & B)
were equally low risk for: technical, logistics, and past performance and small
business utilization evaluations, therefore, the deciding evaluation factor was
price. TACOM awarded the FY 2001 contract to Contractor B based on
obtaining the best value at a low risk and for the lowest price. The following
table shows the results of the source selection board evaluation of the final two
proposals.

          Evaluation of the Final Two Contractors for the FY 2001 Contract

                                                       Past
                                                   Performance/
                      Technical    Logistics      Small Business         Price
                                                                      (in millions)

 Contractor A
                      Excellent    Excellent         Excellent          $75.6
   Risk                Very Low     Very Low          Very Low

 Contractor B
                      Excellent    Excellent           Good             $63.5
   Risk                Very Low     Very Low            Low


Consideration of Technical Components. The allegation stated that in
determining best value, TACOM failed to consider the connector system, which




                                     7
the complainant felt, constituted the single most important technical component of
the entire MCS system. Specifically, concerning the technical components, the
allegation stated that:

       •   Lake Shore did not comply with the technical requirements of the
           solicitation for the connector, and

       •   TACOM did not adequately evaluate the connector design when
           assessing the Lake Shore proposal during the source selection process.

        Technical Considerations in Solicitation. We did not substantiate the
allegation. TACOM did “advertise” that the MCS, which includes the connector,
would be used in salt water. The purchase description stated that the MCS should
be capable of operating in an open ocean environment and should be “corrosion
resistant” or treated with “corrosion resistant” materials. During the source
selection evaluation of the proposals for the FY 2001 contract, TACOM reviewed
every proposal to determine that it met the requirements outlined in the purchase
description. TACOM specifically looked at the contractor’s manufacturing plan,
which would identify the materials that were used in the production of the MCS.
TACOM determined that the Lake Shore proposal did meet the requirements
outlined in the purchase description. In addition, according to TACOM
engineers, as well as engineers at the Office of the Inspector General for the
Department of Defense, the use of corrosion resistant materials would be
sufficient regardless of water type.

        Technical Considerations During Source Selection. Based on a review
of the Source Selection Authority decision, TACOM complied with the
solicitation regarding technical requirements. Despite the different approaches,
the Source Selection Authority rated both proposals as “Excellent and Very Low
Risk” in the technical evaluation area. However, TACOM concluded that the
Lake Shore overall technical proposal reflected less risk and was more
advantageous than the other contractor.

The Source Selection Authority supported its decision to award the FY 2001
contract to Lake Shore because the Lake Shore technical approach was based on
substantially proven design and established manufacturing processes and
procedures. According to the decision document, Lake Shore “demonstrated a
thorough understanding of the current MCS already in the Army’s inventory, and
had previously manufactured MCS, therefore the newly purchased modules
should be interoperable and interchangeable with existing MCS modules.” The
Source Selection Authority decision further stated that the Lake Shore design and
integration approach provided very low risk of failing to meet speed,
maneuverability, transportability, and interoperability requirements.

By comparison, according to the Source Selection Authority decision, the
competing contractor would require reverse engineering of existing MCS
hardware to achieve performance and design requirements and the use of
statistical sampling of existing MCS hardware in order to facilitate
interoperability.




                                    8
Safety and Reliability. The allegation stated that TACOM failed to consider
connector safety and reliability problems when awarding the May 1996 contract
to Robishaw. We did not substantiate the allegation. The contract in question
was initially awarded by ATCOM for $1 million, and the purpose of the contract
was solely to pay patent royalties for the use of the Robishaw side-to-side
connectors used for the MCS purchased under the FY 1993 contract. The
May 1996 contract discussed in the allegation did not address safety and
reliability of the connector because it was issued to pay patent royalties to
Robishaw for the connector design.. ATCOM and TACOM only made payments
on this contract if a patented Robishaw connector was used. TACOM issued the
May 1996 contract because under the FY 1993 contract Lake Shore reverse
engineered the connector and neither the Lake Shore proposals nor TACOM
contracts (both FY 1993 and FY 2001) included the cost of the patent royalties.

Compliance with Contractor Specifications. The allegation stated that Lake
Shore violated contract law by not certifying that their bid was in accordance with
the purchase description. The allegation further stated that TACOM’s failure to
require that Lake Shore comply is also a violation of contract law as well as a
demonstration of a conflict of interest. We did not substantiate the allegation.
The FAR does not require that a bidder certify that their bid is in compliance with
a purchase description. However, TACOM included in the solicitation for the
FY 2001 contract, under “Area I — Technical,” that the contractor is required to
“include a statement in its proposal indicating that the proposal is in compliance
with the purchase description.” Lake Shore complied with the TACOM
requirement and did provide the requisite certification statement in its proposal.

Testing of MCS in Water. The allegation stated that TACOM did not properly
test the system before acceptance because the government accepted the system at
the Lake Shore plant located in Iron Mountain, Michigan, which is not accessible
to water. Testing on water is critical prior to acceptance.

We did not substantiate the allegation that TACOM was accepting the MCS
without properly testing the system in water. According to the test procedures
developed by Lake Shore in order to pass the interoperability and compatibility
tests, which are part of the first article test, the system must be tested in water.
The interoperability test should be performed in water after sections of the MCS
are assembled. The compatibility test requires that the powered section of the
MCS be assembled and operated through a full range of speed in the water. Lake
Shore provided TACOM the results of the interoperability and compatibility tests,
in the MCS First Article Test Report, September 17, 2002, which showed that
Lake Shore with TACOM observing, tested the MCS in salt water, in Norfolk,
Virginia. The tests were to evaluate the interoperability and compatibility of the
modules. The interoperability test was completed in November 2001. The First
Article Test Report stated that the MCS was compatible with other watercraft and
the 1993 modules under different offloading conditions. The compatibility test
was completed in September 2001 and determined that each module from the
FY 2001 contract was completely interchangeable between the individual
subsystems. Both the interoperability and compatibility test were successfully
conducted and completed prior to TACOM accepting the first subsystem in
August 2002.



                                     9
Warranties. The allegation stated that Lake Shore did not warrant the connector
because Lake Shore was only passing through commercial warranties to the
Army. We did not substantiate the allegation. The FY 2001 contract Clause
H.25, “Warranty,” did state that the contractor shall identify and pass through to
the Government any commercial warranty for the components, parts, modules,
and sections of the MCS.

However, TACOM issued a modification to the FY 2001 contract (Supplemental
Information) that required Lake Shore to provide a warranty of the MCS and its
components for 9 months from the date of acceptance. Specifically, Lake Shore
warranted its MCS products to be free of materiel and workmanship defects on
proper preservation and storage as defined in Lake Shore packaging and
preservation instructions. Therefore, in accordance with the contract, Lake Shore
agreed to not only pass commercial warranties on to the Government, but Lake
Shore also warranted the system for 9 months after acceptance.

Connector Reliability and Safety
Allegations Regarding Reliability and Safety. The allegation stated that the
connectors used on the MCS were unreliable and unsafe and contributed
unnecessary risk for soldiers for the following reasons. The connectors

       •   were by design for fresh water and not appropriate for salt water use,

       •   were not corrosion resistant and could not be adequately painted with
           corrosion resistant material,

       •   did not have anti-fouling material on components,

       •   did not connect properly to ensure MCS is operational, and

       •   were unsafe to assemble in uncalm waters without injury to soldiers.

Audit Results. We partially substantiated allegations regarding the reliability
and safety. However, the allegations that we substantiated were related to the
connectors used on the MCS procured under the FY 1993 contract not the
FY 2001 contract. TACOM and Lake Shore took actions to correct the reliability
and safety concerns and set in place procedures, tests, and inspections with the
contractor to ensure the production concerns did not occur again.

Appropriateness of Connector. The allegation stated that the connectors used in
the FY 2001 contract were a fresh water design and not appropriate for salt water.

      Applicable for Salt Water Use. We did not substantiate the allegation.
The September 2002 purchase description, paragraph 1.1, stated that the MCS
would operate in open ocean.




                                    10
Furthermore, the purchase description, paragraph 3.3.15.1, stated the following to
outline the material the MCS should be made of and any needed protection:
       “the MCS components shall be fabricated from compatible materials,
       inherently corrosion resistant or treated to provide protection against
       the various forms of corrosion and deterioration that may be
       encountered in any of the operating and storage environment to which
       the MCS may be exposed.”

The purchase description further required that the connector be made of steel but
was silent regarding the type of steel. The purchase description also called for
treating the MCS components, as well as the connectors, with two coats of paint
and exposed surfaces with preservatives, such as inorganic zinc (a military
standard type of corrosion resistant primer) and lubricating grease. In addition,
the Army Unit, Direct Support and General Support Maintenance Manual for the
Floating Causeway (MCS Maintenance Manual), September 30, 2002, requires
the soldiers to remove the MCS from the water after 90 days or upon mission
completion for maintenance, which included cleaning and repainting exposed or
rusty surfaces and lubricating connector springs, connector bars, and guillotines.

According to engineers at the Office of the Inspector General for the Department
of Defense, all types of steel would corrode over time; however, coating the MCS
components with inorganic zinc and other preservatives should deter corrosion.
In addition, according to a TACOM Quality Assurance Specialist familiar with
the MCS, these procedures should provide adequate corrosion protection from
salt water.

During the source selection evaluation for technical merit, TACOM evaluated the
Lake Shore proposal by considering the proposed material the MCS would be
made of and how Lake Shore proposed to ensure the material would be protected
from corrosion and other deterioration. In evaluating the Lake Shore proposal
TACOM took into consideration the appropriateness of the design for use in salt
water.

        Corrosion Resistance. The allegation stated that the spring pocket (the
well housing the deploying spring) and the area where the square bar is welded
into the channel slot of the connectors were either impossible or difficult to paint
with corrosion resistant material. (See Appendix B to see the components of the
connector and how the components connect together.)

We partially substantiated the allegation. We determined that the spring pocket
and the square bar are difficult to paint on the connectors for both the FY 1993
and FY 2001 contracts. Even though these components are difficult to paint, the
TACOM Quality Assurance Specialist stated that the spring pocket could be
painted during new construction and depot maintenance; however, it is true that
the square bar can not be fully painted once welded to the channel slot. The MCS
Maintenance Manual requires that both components be greased during routine
maintenance as a measure to prevent corrosion. According to the MCS users, the
331st Transportation Company soldiers performed the required maintenance on
the MCS connectors, as defined in the MCS Maintenance Manual. The MCS



                                         11
           users stated that they have not experienced corrosion problems, with either the
           spring pocket or the square bar, on the subsystems that were materiel released to
           the users.

                   Anti-Fouling Material on the MCS. The allegation stated that the
           FY 2001 contract required the MCS to have anti-fouling protection; but the MCS
           did not have anti-fouling protection2.

           We did not substantiate the allegation. The FY 2001 contract did not require anti-
           fouling protection coating on the MCS. However, the MCS Maintenance Manual
           required routine maintenance of the system when removed from the water after 90
           days or mission completion, whichever is shortest, to combat growth of marine
           life. According to the TACOM Quality Assurance Specialist, who is also the
           MCS Test Director, the inorganic zinc, as required in the purchase description and
           the MCS Maintenance Manual, coating provided a maintenance-friendly surface
           that would be easy to clean-off marine life.

           Connectors Operational Capabilities. The allegation stated that the connectors
           were difficult to connect, retracting the connector pins was dangerous to the
           soldier, and as a result soldiers had been or could be injured.

                   Connector Difficulties. We did not substantiate the allegation. The
           connectors were difficult to connect; however, the difficulty was only an issue for
           connectors that were acquired under the FY 1993 contract. In August 2000,
           TACOM received two Product Quality Deficiency Reports (PQDR) from the
           MCS users documenting problems they were having with the connectors on the
           MCS modules. The purpose of the PQDR was to report deficiencies and
           unsatisfactory conditions in products, material, or equipment. Specifically, in the
           PQDR, the MCS users outlined the following two problems with the connectors:

                              •   the connecting pins were not compatible with the modules and
                                  required the MCS users to ground down the pin to the
                                  appropriate size, and

                              •   the connector casting dimensions were out of tolerance, which
                                  required the users to physically jam the connector together.

           In response to the PQDR, TACOM issued two interagency agreements with the
           Department of Transportation, a contract with Metal Trades, Inc., and a contract
           with Davis Boat Works, Inc., to refurbish approximately 380 modules (for
           $4.1 million) from the FY 1993 contract. In the refurbishment effort, TACOM
           had the Department of Transportation and the contractors grind down oversized
           connector pins to the correct size, adjust the casting dimensions of the connector
           to the appropriate dimensions, clean and repaint modules, and complete any other
           repairs needed. Furthermore, to ensure that the problem, outlined in the PQDR,
           did not resurface again, TACOM initiated a 100 percent screening process, with
           Lake Shore of all critical sizes and dimensions under the FY 2001 contract. In
           September 2001, DCMA started conducting the 100 percent screening of the

2
    An anti-fouling protection is material applied to a surface to prevent the growth of marine life, such as
    barnacles.



                                                        12
           critical sizes and dimensions of the modules as part of its inspection and
           acceptance procedures for modules produced under the FY 2001 contract. As part
           of the inspection and acceptance procedures, DCMA also randomly conducted
           compatibility test on the modules to determine whether they were connecting
           properly with existing modules. In addition, DCMA performed 100 percent
           reviews of the connector pins to ensure they were the correct size. Because
           DCMA started accepting modules from the FY 2001 contract, in August 2002 the
           100 percent screening of critical sizes and dimensions proved that connector pin
           sizes and dimensions were correct.

                  Connector Retraction. The allegation stated that retracting the connector
           pins was dangerous and soldiers could be injured when performing the task.

           We did not substantiate the allegation. Until August 2002 the soldier had to work
           over the edge of a floating module to retract pins that were below water level.
           According to the Operator’s Manual for the Modular Causeway System, August
           1997, retracting the connector pins should be accomplished while the modules are
           on land; however, there are occasions when the retraction process could be done
           in water. TACOM had the pin retraction tool developed through work with the
           Department of Transportation. After a solider expressed concern about having to
           work over the edge of the modules to retract pins below water level, the pin
           retraction tool was developed and tested through an agreement between TACOM
           and the Department of Transportation and was provided to MCS users in
           August 2002. The pin retraction tool was used to retract the lower pins, located
           below the water, when in rare instances someone mistakenly lifted the guillotine
           from the module without protective fenders. According to TACOM personnel
           and the MCS users, with the introduction of the pin retraction tool, soldiers no
           longer had to lean over the edge of the module to retract the connector pins,
           which made the task safer.

           Accidents and Injuries Related to the Use of the MCS Connectors. The
           allegation stated that because the connectors were unreliable and unsafe there
           were injuries to the soldiers and there could be more injuries and possibly
           fatalities.

           We did not substantiate the allegation. According to Army Safety Center3
           personnel and MCS users Safety Office, there were accidents and injuries relating
           to operating the MCS, but none were attributed to a failed, unreliable, or unsafe
           connector. The Army Safety Center and the MCS users Safety Office attributed
           the accidents and injuries on the MCS to weather conditions, crane operations
           moving the modules, vessels hitting the modules, and improper or inappropriate
           operation of equipment.

           TACOM Initiatives to Resolve Substantiated Allegations. The allegations
           attributed the safety and reliability problems to the connectors procured under the
           FY 2001 contract. The complainant is correct that safety and reliability problems

3
     The Army reports accidents by using the Accident Report (Form DA 285), which is sent and processed
    through the Army Safety Center, Fort Rucker, Alabama. The mission of the Army Safety Center is to
    review, investigate, and research reported accidents and serves as the primary advisor to the Army on
    accident prevention.



                                                     13
occurred. However, those problems occurred with MCS components procured
under the FY 1993 contract, not the FY 2001 contract. Furthermore, the safety
and reliability problems have not occurred in the current MCS production under
the FY 2001 contract. This is for multiple reasons, specifically:

       •   TACOM worked with Lake Shore in June 2001 to address production
           problems by instituting quality control processes to ensure production
           in accordance with the purchase description.

       •   From September 2001 through September 2002, TACOM and Lake
           Shore successfully conducted first article testing on subsystems
           produced under the FY 2001 contract.

       •   From September 2001 through September 2002, DCMA screened
           100 percent of the critical sizes and dimensions of the connectors as
           well as randomly tested the modules for compatibility with existing
           modules.

According to MCS users, they have not experienced any major failures or
corrosion problems with the subsystems that have been material released to them.

Materiel Release of the MCS Subsystems
Criteria for Materiel Release. Army Regulation 700-142, “Materiel Release,
Fielding, and Transfer,” May 1, 1995, states that materiel release is the process
the Army uses to make sure material is suitable and supportable before release to
the field. Materiel release is beyond just accepting the assets from the developer.
The materiel release process is critical since it is the “final gate,” material should
be safe, meet performance requirements, and be logistically supportable. When
deficiencies with equipment are identified during the materiel release process,
materiel developers must conditionally release equipment and track the
deficiencies on the systems “get-well” plan until they resolve the deficiencies.
Equipment released under conditional release is limited to users with urgent
requirements. When all deficiencies are resolved, the materiel developer can
obtain full release and issue the material to all users.

Allegation Regarding Materiel Release. The allegation stated that, due to
unreliable and unsafe connectors, TACOM could not obtain materiel release of
the four MCS subsystems for more than 10 years after the award of the FY 1993
contract.

Audit Results. We partially substantiated the allegation. According to TACOM
records, the following are the materiel release dates for the MCS subsystems,
including portions from the FY 1993 contract:

       •   roll-on/roll-off discharge facility – August 2002,

       •   floating causeway – August 2002,




                                      14
       •   warping tug – December 2003, and

       •   causeway ferry – TACOM plans to materiel release in
           September 2005.

The allegation is correct in that TACOM had not obtained materiel release on the
four MCS subsystems more than 10 years after the award of the FY 1993
contract. However, only the causeway ferry was procured under the FY 1993
contract. Materiel release was delayed because the causeway ferries under the
FY 1993 contract failed the initial first article test, and the Army expanded its
combat materiel offloading mission. Furthermore, through testing done on the
causeway ferry, the Army identified additional requirements for the program and
the assets purchased under the FY 1993 contract were updated to include those
requirements. Finally, the assets purchased under the FY 1993 contract were
refurbished to correct several production failures and to remove corrosion from
the modules and repaint them.

        Items Purchased Under the FY 1993 Contract. The FY 1993 contract
with Lake Shore was for the purchase of 10 power sections, 14 combined beach
and sea end section and 56 intermediate sections. The FY 1993 contract did not
include requirements for the remaining three subsystems — roll-on/roll-off
discharge facility, floating causeway, or warping tug. These three subsystems
were instead procured under the FY 2001 contract. As such, 2002 and 2003
materiel release dates for those subsystems was not unreasonable. The sections
purchased under the FY 1993 contract were used to test, explore alternative
solutions, prove out the technology, and identify potential enhancements to meet
the operational requirements defined in the operational requirement document.
The only aspect of the FY 1993 contract the Army initially planned to materiel
release was the causeway ferry.

         Causeway Ferry Materiel Release. Under the FY 1993 contract the
Army planned to materiel release the causeway ferries, but was delayed for
several reasons. The materiel release of the causeway ferries purchased under the
FY 1993 contract were delayed because the causeway ferries failed the first
article test and there were changes to the Army offloading mission. Also, because
of the testing done on the causeway ferry, the Army identified additional
requirements for the program and the assets purchased under the FY 1993
contract were updated to include those requirements. Finally, the assets
purchased under the FY 1993 were refurbished to correct the identified
production failures, to remove corrosion, and to repair and repaint the modules.

               First Article Test Results. According to the U.S. Army Aberdeen
Test Center report, “Abbreviated Report for the First Article Test of the Modular
Causeway Ferry,” August 1998, Lake Shore started conducting the first article
testing process on the FY 1993 contract causeway ferry in May 1995.
Preliminary test results indicated that the causeway ferry did not meet the
Independent Assessment Plan, which was an overall plan, generated by the Army
Aberdeen Test Center, to accomplish the test and evaluation of the system. This
test and evaluation is part of the materiel release process requirement. Lake
Shore then requested a postponement of the first article test for a redesign effort.
The U.S. Army Aviation and Troop Command granted the postponement request


                                    15
           and the causeway ferry was temporarily withdrawn from testing for design
           modifications. Testing of the modified causeway ferry was then rescheduled for
           Spring 1996. The 1996 test results identified additional issues with the causeway
           ferry that did not meet the purchase description requirements. Additional testing
           to cover the remaining first article test requirements was planned for later dates in
           1997, but was subsequently postponed. These tests, including beaching and
           retracting tests, were eventually merged with the first article test of the assets
           purchased under the FY 2001 contract. However, none of the issues addressed in
           the U.S Army Aberdeen Test Center report related to reliability and safety of the
           side connectors.

                             Changes to Army Mission. In addition to the initial failed first
           article test, the Army expanded its offloading mission to be accomplished without
           the Navy participation. Prior to the early 1990’s, the Army depended on the Navy
           Landing Ships Tank and the Navy Lighterage Causeway to offload its combat
           materiel into theater. However, as the Navy Landing Ships Tanks were
           decommissioned and the joint military doctrine changed from the Navy being first
           in theater to the Army performing its own offloading of materiel from either
           Army or commercial ships. Furthermore, as a result of the first article test failure
           and the changes in Army mission, in August 1999 the U.S. Army Training and
           Doctrine Command revised the MCS ORD to further define the capabilities
           needed to accommodate the changes. Specifically, the revised MCS ORD
           required a modified ramp called the causeway ferry beach end, which was
           attached to the end of the causeway ferry, to facilitate the offloading of combat
           material to shore. The revised MCS ORD also expanded the sizes of the roll-
           on/roll-off discharge facility and the floating causeway to maximize cargo
           throughput. In addition, the MCS needed to be capable of transporting material
           from the ship to shore through a minimum of sea state4 two and maximum of sea
           state three. In an effort to ensure that the materiel released subsystems met these
           requirements, TACOM had any needed upgrades done to the modules.

                          Corrosion on the MCS Modules Due to Materiel Release. Even
           though there are processes and procedures in place to ensure that the MCS is
           properly maintained and kept free of corrosion, rust, and marine life, TACOM
           had to refurbish the modules purchased under the FY 1993 contract partially
           because of problems of corrosion, rust, and marine life on the MCS components.
           The quality assurance specialist attributed the heavy corrosion, rust, and marine
           life on the MCS components to the users having the system without a proper
           materiel release and not maintaining the system properly. Because the MCS
           modules had not been officially materiel released to the users, they did not have
           the proper tools and training to conduct proper maintenance on the modules. In
           addition, according to the Army Audit Report AA99-4111, “Materiel Release,”
           September 1999, the MCS was not materiel released because other activities
           didn’t accomplish some prerequisites to release. Furthermore, the report stated
           that because the user had an urgent need for the equipment, the materiel developer
           issued the system to the users on a hand receipt. The report recommended that all
           project-managed programs be required to go through the materiel release process.


4
    Sea state is a scale that categorizes the forces of progressively higher seas by wave height.



                                                        16
           In 2000, TACOM personnel, with assistance from the Department of
           Transportation, conducted a complete and in-depth review of the MCS modules in
           the possession of the MCS users and made a determination that the majority of
           the modules were not in good condition and would need to be refurbished to bring
           them back to an operational condition. TACOM subsequently instituted a
           refurbishment effort to have the corroded and rusted modules cleaned, painted,
           and repaired. The refurbishment effort was conducted through two interagency
           agreements with the Department of Transportation and two contracts with Metal
           Trades and Davis Boat Work. TACOM used the refurbishment effort to prepare
           the modules purchased under the FY 1993 contract for the materiel release
           process. TACOM paid a total of $4.1 million for the two interagency agreements
           and the two refurbishment contracts to have the 380 modules (from the FY 1993
           contract) cleaned and repaired.

                   Current Status of Materiel Release of MCS Subsystems. According to
           the Materiel Fielding Plan, there was a shift in priority from the causeway ferry
           being the highest priority to the roll-on/roll-off discharge facility and warping tug
           being the highest priority. As a result, the materiel release effort was also shifted.
           Currently, the Army has successfully materiel released the following subsystems:
           roll-on/roll-off discharge facility, floating causeway, and warping tug. The
           materiel release of the causeway ferry was pending incorporation of the causeway
           ferry beach end component into the technical manuals. TACOM and Lake Shore
           have successfully tested the causeway ferry beach end component, as part of the
           FY 2001 contract, and plan to materiel release the causeway ferry in
           September 2005.

           Management of Funds for MCS
           Fund Management Allegations. The allegation stated because of the MCS
           connector reliability and safety issues TACOM mismanaged Federal funds by
           expending additional funds for repairs and to repaint the connectors.

           Audit Result. We did not substantiate the allegation. The Army expended
           $30.2 million on the FY 1993 contract to procure 10 powered sections,
           14 combined beach and sea end sections, and 56 intermediate sections. Then
           from 1993 through 2001, the Army expended a total of approximately
           $4.1 million on interagency agreements and contracts to refurbish the modules
           purchased under the FY 1993 contract. The $4.1 million5 was for both repairing
           the connector pin sizes and the connector casting dimensions as well as for
           cleaning and repainting the modules as part of a refurbishing effort of the modules
           purchased under the FY 1993 contract.

           The FY 2001 contract was awarded for $64.3 million. However, as of
           March 2004, $48.9 million had been expended. The combination of total costs
           for the FY 2001 contract of $64.3 million plus the $4.1 million expended for


5
    The $4.1 million includes the cost for both interagency agreements with the Department of Transportation
    (totaling $2.7 million) and the contracts with Medal Trades, Inc., ($795,830) and Davis Boat Works, Inc.,
    ($570,397).



                                                      17
    refurbishment of the FY 1993 modules is less than contract costs of $75.6 million
    proposed by the other contractor (Contract A) from the source selection
    evaluation.


Conclusion
    TACOM awarded the FY 2001 contract to Lake Shore in accordance with the
    source selection evaluation criteria and fully considered the design of the
    connector in making the selection. However, TACOM did incur reliability and
    safety concerns with the connectors acquired under the FY 1993 contract, but not
    under the FY 2001 contract. Even though there were reliability and safety
    concerns with the FY 1993 assets, TACOM (once it became the program
    manager) took corrective action to correct the reliability and safety issues relating
    to the modules procured under the FY 1993 contract. In addition, TACOM and
    Lake Shore set in place procedures, tests, and inspections to ensure the production
    issues were corrected. In addition, TACOM initiated refurbishment efforts to
    correct the production deficiencies in the modules procured under the FY 1993
    contract to ensure that the modules were fully operational. Even though
    additional funds were expended to refurbish modules procured under the FY 1993
    contract, this cost was less than the cost of the proposal from the second
    contractor.




                                         18
Appendix A. Scope and Methodology
   We performed the audit to examine allegations made to the Defense Hotline on
   May 6, 2003, and in response to a congressional request made by Senator Pete V.
   Domenici that the connectors used on the MCS were unreliable, unsafe, and
   contributed to unnecessary risk for the soldiers causing the Army to take more
   than 10 years (after the award of the contract) to obtain material release of the
   four MCS subsystems. We also evaluated allegations that TACOM improperly
   awarded the FY 2001 contract based on price instead of best value.

   We collected, reviewed, and analyzed documents dated from December 1992
   through August 2004. Specifically, we evaluated contracts, systems
   specifications, source selection criteria, first article test plans and results, and
   other contract documentation relating to both the FY 1993 and FY 2001 contracts.
   We interviewed TACOM, Defense Contract Management Agency, Army Safety
   Center, 331st Transportation Company, and Department of Transportation
   personnel to gain a better understanding of the history, mission, purpose, safety
   factors, and reliability levels of the MCS. Finally, we interviewed the
   complainant to obtain clarification of the allegations.

   We performed this audit from December 2003 through September 2004 in
   accordance with generally accepted government auditing standards.

   The scope was limited in that we did not review the management control program
   because the audit scope was limited to the allegations on the award of the
   FY 2001 contract and the reliability and safety of the connectors, as addressed in
   the Defense Hotline compliant. In addition, due to time and resource constraints
   we did not review any allegations relating to the life cycle cost of the MCS. We
   did not physically observe the MCS maintenance or operation because of
   constraints on travel funds. Furthermore, we reviewed the contract administration
   of the FY 2001 contract, as it related to determining whether Lake Shore was
   meeting the requirements of the contract. Finally, we were limited in our review
   of the FY 1993 contract because complete contract documentation was not
   transferred to TACOM when ATCOM transferred the contract administration
   function.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Use of Technical Assistance. We obtained assistance from a mechanical
   engineer of the Mechanical Engineering Branch, Technical Assessment Division,
   of the Office of the Inspector General. The engineer assisted the auditors in
   understanding the technical requirements for the materiel and function of the side-
   to-side connector, as well as, determining whether Lake Shore provided a system
   that met the specifications and functions outlined in the contract.

   Government Accountability Office High-Risk Area. The Government
   Accountabilty Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Contract Management high-risk area.



                                       19
Prior Coverage
       During the last 5 years, the Inspector General of the Department of Defense and
       the Army Audit Agency have issued four reports discussing the Government
       acceptance procedures for contractor’s parts, review of the Army watercraft
       program, review of the Army process for reporting quality deficiencies, and
       review of the Army materiel release process. Unrestricted IG DoD reports can be
       accessed at http://www.dodig.osd.mil/audit/reports.

IG DoD
       IG DoD Report No. D-2003-065, “Allegations Concerning Government
       Acceptance Procedures for a Contractor’s Parts,” March 21, 2003

Army
       Army Audit Agency Report No. A-2004-0111-AMA, “Army Watercraft
       Program,” January 22, 2004

       Army Audit Agency Report No. A-2003-0333-AMA, “Army Quality Deficiency
       Reporting System,” June 30, 2003

       Army Audit Agency Report No. AA 99-411, “Materiel Release,” September 30,
       1999




                                         20
Appendix B. Components of the Modular
            Causeway System
   The MCS was a collection of interoperable and interchangeable components that
   was the primary means of the Army to augment existing port facilities, or conduct
   logistics over-the-shore operations where no port was available due to shallow
   water or low-sloping beaches. The MCS consisted of four subsystems composed
   of modules in various combinations. The four subsystems were:

          •   roll-on/roll-off discharge facility, acted as a pier to move cargo to a
              barge, while floating next to cargo vessel;

          •   floating causeway acted as the floating bridge for movement of cargo
              from a barge to the beach;

          •   warping tug was used to assemble, push, pull, restrain, and maneuver
              the roll-on/roll-off discharge facility; and

          •   causeway ferry was a moving barge that can move cargo from a cargo
              vessel or roll-on/roll-off discharge facility and floating causeway.

   See Figures 1 through 4 for pictures of each of the MCS subsystems.




    Figure 1. Roll-On/Roll-Off                      Figure 2. Causeway Ferry
        Discharge Facility




                                        21
        Figure 3. Floating Causeway                 Figure 4. Warping Tug




The individual modules that made up the four subsystems were connected
together by both side-to-side connectors and end-to-end connectors. The side-to-
side connector was composed of both male and female parts that interlock
together when the connectors are engaged. The male and female parts were
interlocked with a guillotine bar, a vertical bar that came down on the engaged
male and female connectors to achieve full connection of the modules. This
arrangement strengthened the connectors, enabling them to withstand heavy
loads.

See Figure 5 and Figure 6 to see a picture of connector and the components of the
connector.




                                   22
                   Figure 5. Side-to-Side Connector Assembly




            Figure 6. Components of the Side-to-Side Connector System

Source: U.S. Army Tank-automotive and Armament Command




                                       23
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)


Department of the Army
Auditor General, Department of the Army
Commander, U.S. Army Tank-automotive and Armaments Command
Commander, U.S. Army Forces Command
  Commander, 7th Transportation Group
     Commander, 331st Transportation Company

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        25
Team Members
   The Office of the Deputy Inspector General for Auditing of the Department of
   Defense, Contract Management prepared this report. Personnel of the Office of
   the Inspector General of the Department of Defense who contributed to the report
   are listed below.

   David K. Steensma
   Kimberley A. Caprio
   Rhonda L. Ragsdale
   Linh Truong
   Cecil B. Tucker
   Tabitha J. Lemley
   Theresa Tameris
   Chandra Sankhla
